                            u.s. SMALL BUSINESS ADMINISTRATION          

                                OFFICE OF INSPECTOR GENERAL 

                                     AUDITING DIVISION




November 13,2009



u.s. Department of the Treasury 

Financial Management Services 

Room 509B 

3700 East-West Highway 

Hyattsville, MD 20782 

Attention: Karen Hunter


Subject: SBA OIG Audit Report No. 10-05, GFRSfor Fiscal Year 2009

Pursuant to OMB Circular A-136, Financial Reporting Requirements (Circular A-136) 

and the Treasury Financial Manual, Part 2, Chapter 4700 (TFM2-4700), attached is the 

Independent Auditors’ Report on Special-Purpose Financial Statements, issued by KPMG 

LLP on the Small Business Administration’s (SBA)reclassified balance sheet as of 

September 2009 and 2008, and the reclassified statements of net costs and changes in net 

position and Federal trading partner note for the year then ended (hereinafter referred to as the 

special-purpose financial statements).

The auditor found that the statements, including the Federal trading partner note, 

present fairly in all material respects, the financial position of SBA as of September 30, 2009 

and 2008. Also, the results of operations and the changes in net position for the period then 

ended are in accordance with  U.S.    generally accepted accounting principles, and the presentation 

is in conformance with the requirements ofTFM 2-4700. As requested, the following documents 

are attached:


       (1)reclassified financial statements; 

       (2)GF004F Trading Partner Summary Note Report; 

       (3)GF003G Closing Package Line Reclassification Summary Report; 

       (4)GF006 FR Notes Report; 

       (5)GF007 Other Data Report; 

       (6)Management Representation Letter on the Closing Package, including the Summary of 

          Unadjusted Misstatement; and 

       (7)Closing Package Independent Auditors’ Report.

We reviewed KPMG’s report and related documentation and made necessary inquiries 

oftheir representatives. Our review was not intended to enable us to express, and we do not 

express, an opinion on the SBA’s reclassified financial statements or on conclusions about 

internal control and the SBA’s compliance with laws and regulations. However, our review 

disclosed no instances where KPMG did not comply, in all materials respects, with Generally 

Accepted Government Auditing Standards.

                               KPMG LLP 

                               2001 M Street, NW

                               Washington,DC 20036 



                                         Independent Auditors’Report 


U.S.
Office of Inspector General

     Small Business Administration: 


U.S.
We have    audited the accompanying Closing Package Financial Statement Report Balance Sheet of the

      Small Business Administration (SBA)as of September 30, 2009 and 2008; the related Closing

Package   Financial Statement Report Statement of Net Cost and Statement of Changes in Net Position,

and the accompanying Financial Report (FR)Notes Report (exceptfor the information contained in the FR 

Notes Report entitled "Threshold")for the years then ended; the accompanying Additional Note 29;

the accompanying Trading Partner Summary Note Report Balance Sheet as of September 30, 2009 and 

                                                                                                                       No.
2008; and the related Trading Partner Summary Note Report Statement of Net Cost and Statement of 

Changes in Net Position for the years then ended (hereinafter collectively referred to as the
financial statements). These   special-purpose     financial statements are the responsibility of SBA’s

                                                                                                                special-purpose

management.     Our responsibility is to express an opinion on these
based on our audits. 

                                                                                              special-purpose
                                                                                         financial statements 

We conducted our audits in accordance with auditing standards generally accepted in the United States of 

America; the standards applicable to financial audits contained in Government Auditing Standards,issued 

No.07-04,No.07-04
by the Comptroller General of the United States; and Office of Management and Budget (OMB)Bulletin

Bulletin
             Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB 

                     require that we plan and perform the audits to obtain reasonable assurance about 

whether the  special-purpose   financial statements are free of material misstatement. An audit includes 

consideration of internal control over financial reporting asa basis for designing audit procedures that are 

appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of

SBA’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also 

includes examining,on a test basis,evidence supporting the amounts and disclosures in the
financial statements and assessing the accounting principles used and significant estimates made by

                                                                                                                special-purpose

management,as well as evaluating the overall              special-purpose
that our audits provide a reasonable basis for our opinion. 

                                                                financial statement presentation. We believe 

The accompanying    special-purpose
with the requirements of Chapter 4700 of the                   U.S.No.
                                     financial statements have been prepared for the purpose of complying

                                                         Department of the Treasury’s Treasury Financial

                    U.S.
information to the Department of the Treasury and the Government Accountability Office 

(GAO)to use in preparing and auditing the Financial Report of the
                                                                                          U.S.U.S.
Manual (TFM),as described in Additional Note 29, solely for the purpose of providing financial 

                                                                           Government,and are not intended 

to be a complete presentation of SBA’s consolidated financial statements. 

In accordance with TFM Chapter 4700,SBA prepared FR Notes Report 1 through 28B,except for FR 
   Nos.SBA.
     No. Nos. special-purpose
Notes Report 10A,16,21,23, and 24,which were not applicable to
Note 29,to disclose other data not contained in the
necessary to make the
                                                                                   SBA included Additional 

                                                                             special-purpose
                                                                           financial statements, but which is 

                                        financial statements more informative. 




                                KPMG LLP,a   U.S.                                U.S.

                                                 limited liability partnership,is the
                                member firm of KPMG International,a Swiss cooperative.

In our opinion, the special-purpose financial statements referred to above present fairly, in all material 

                                                         U.S.
respects,the financial position of SBA as of September 30,2009 and 2008,and its net costs and changes in 

net position for the years then ended in conformity with generally accepted accounting principles and 

the presentation pursuant to the requirements of TFM Chapter 4700, as described in Additional Note

No.29. 

SBA also prepared Other Data Report    Nos. SBA.
                                              1 through 16,except for Other Data Report       Nos.
and 11 through 14,which were not applicable to The information included in the Other Data Report

                                                                                                   3 through 8 

Nos.  9 (except for the information in the section entitled "Threshold"),10,15,and 16 is presented for the 

purpose of additional analysis and is not a required part of the special-purpose financial statements, but is 

supplementary information required by      U.S.   generally accepted accounting principles and the TFM 

Chapter 4700. We have applied certain limited procedures, which consisted principally of inquiries of 

management regarding the methods of measurement and presentation of this information.However,we did 

not audit this supplementary information,and accordingly,we express no opinion on     it. 

Our audits were conducted for the purpose of forming an opinion on the special-purpose financial 

                                                                                  Nos.
statements taken asa whole. The information included in the Other Data Report 1 and 2 is presented

for purposes of additional analysis and is not a required part of the special-purpose financial statements. 

This information has been subjected to the auditing procedures applied in the audits of the special-purpose

financial statements and, in our opinion, is fairly stated in all material respects in relation to the
purpose financial statements taken asa whole. 

                                                                                                        special-

entitled "Threshold" in FR Notes Report    Nos.                 No.
The information entitled "Threshold" in Other Data Report 9 and the information in the sections 

                                                  2, 3, 4A,4B,6,8,9, 15, and 19; the information in the 

Closing Package Line Reclassification Summary Report Balance Sheet; and the information in the 

Closing Package Line Reclassification Summary Reports Statement of Net Cost and Changes in Net 

Position are presented for purposes of additional analysis and are not a required part of the special-purpose

financial statements. This information has not been subjected to the auditing procedures applied in the 

audits of the special-purpose financial statements,and accordingly,we express no opinion on     it. 

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting System to input

certain data as described in Additional Note   No. 29.
opinion on information maintained in that system. 

                                                         Except as discussed in this report, we express no 

In accordance with Government Auditing Standards and OMB Bulletin         No.07-04,     we have also issued a 

combined auditors’ report dated November 13, 2009 which presents our opinion on SBA’s consolidated 

financial statements;our consideration of SBA’s internal control over financial reporting; and the results of 

our tests of its compliance with certain provisions of laws, regulations, contracts, and grant agreements,

and other matters that are required to be reported under Government Auditing Standards. Also, our report

emphasized SBA’s implementation of Statement of Federal Financial Accounting Standards 31,
             No.
Accounting for Fiduciary Activities. That report is an integral part of the audits of the consolidated balance 

sheets of SBA as of September 30,2009 and 2008,and the related consolidated statements of net cost,and 

changes in net position, and combined statements of budgetary resources (hereinafter collectively referred 

Government Auditing Standards and OMB Bulletin       No.07-04,
to as consolidated financial statements) for the years then ended, performed in accordance with

                                                                  and should be read in conjunction with this 

report in considering the results of our audits of the special-purpose financial statements. Our audit of the 

consolidated financial statements of SBA as of and for the year ended September 30,2009 disclosed the 

following material weakness,significant deficiency,and compliance matter: 

Material Weakness: SBA needs to improve their Internal Controls over Financial Reporting 

Significant Deficiency: SBA needs to improve their Information Technology (IT)Security Controls

Compliance Matter: SBA management reported the agency was noncompliant with the Debt Collection

Improvement Act in fiscal year 2009 due to instances where it did not refer a substantial number of 

charged off loans to Treasury for offset andcross-servicing. 

Management is responsible for establishing and maintaining effective internal control. In planning and 

performing our audit of the fiscal year 2009 special-purpose financial statements, we also considered

SBA’s internal control over financial reporting as a basis for designing our auditing procedures for the 

purpose of expressing our opinion on the special-purpose financial statements, but not for the purpose of

expressing an opinion on the effectiveness of SBA’s internal control over financial reporting. Accordingly,

we do not express an opinion on the effectiveness of SBA’s internal control over financial reporting. 

Our consideration of internal control over financial reporting for special-purpose financial statements was 

for the limited purpose described in the preceding paragraph of this section and was not designed to 

identify all deficiencies in the internal control over financial reporting for special-purpose financial 

statements that might be deficiencies,significant deficiencies,or material weaknesses. 

A deficiency in internal control exists when the design or operation of a control does not allow 

management or employees, in the normal course of performing their assigned functions, to prevent, or 

detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or combination 

of deficiencies, in internal control that is less severe than a material weakness, yet important enough to 

merit attention by those charged with governance.A material weakness is a deficiency, or combination of

deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of 

the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. 

In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial 

reporting for the special-purpose financial statements that we consider to be material weaknesses as 

defined   above. 

Management is responsible for complying with laws,regulations (including TFM Chapter 4700),contracts,

and grant agreements applicable to  SBA.   As part of obtaining reasonable assurance about whether SBA’s 

fiscal year 2009 special-purpose financial statements are free of material misstatement, we performed tests 

of its compliance with certain provisions of laws, regulations, contracts, and grant agreements,





                                   ________
noncompliance with which could have a direct and material effect on the determination of financial 

statement amounts. However,providing an opinion on compliance with those provisions or on compliance

with TFM Chapter 4700 requirements was not an objective of our fiscal year 2009 audit of the
purpose financial statements,and accordingly,we do not express such an opinion. 

                                                                                                     special-

The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of noncompliance or 

No.07-04. 

other matters that are required to be reported under Government Auditing Standards or OMB Bulletin



                         U.S.
This report is intended solely for the information and use of SBA’s management, SBA’s Office of

                                                     U.S.
Inspector General, the Department of the Treasury, OMB, and GAO, in connection with the 

preparation and audit of the Financial Report of the Government,and is not intended to be and should 

not be used by anyone other than these specified parties. 


November 13,2009

